4
I

C@OCKLE

; E-Mail Address:
Lega | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 .
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-208

LIBERTY MUTUAL FIRE INSURANCE COMPANY,
Petitioner,
v.
ETHAN VOLUNGIS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7965 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of December, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

® GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Het: 9. Thar OQudcaw &. Gh

a My Comm. Exp. September 5, 2023 ~
Affiant

 

 

Notary Public
40420
